Before the Committee on Appropriations
Subcommittee on Transportation, Treasury and
Independent Agencies
U. S. House of Representatives


For Release on Delivery
Expected at
10:00 a.m. EST
                          The Rating and
                          Evaluation of New
Wednesday
April 28, 2004
CC-2004-021

                          Starts Transit Systems



                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today to discuss FTA’s New Starts
evaluation process, and to outline opportunities we found to better ensure that
long-term transit spending provides the best value for the American taxpayer and
our transportation system.

As you know, the New Starts program relies on full funding grant agreements,
which are long-term funding commitments that help meet the financial
requirements of large transit projects. Because FTA awards relatively few full
funding grant agreements each year, it is crucial that the most promising New
Starts projects are selected as candidates for funding. It is doubly critical now
because these decisions are being made against the backdrop of limited funding to
support projects in the New Starts pipeline.

To illustrate, there are 26 projects with existing full funding grant agreements and
another 38 projects1 in preliminary engineering, final design, or that have been
proposed for funding, which collectively are seeking $24.3 billion in Federal
funding.2 However, the funds available for New Starts projects over the next
6 years can support only a fraction of these projects. Specifically, the House
transit reauthorization designated a total of $9.5 billion for New Starts for Fiscal
Years (FY) 2004 through FY 2009. Of the $9.5 billion, the House bill provides
$3.1 billion for the 26 transit projects with existing full funding grant agreements.
This leaves $6.4 billion to fund other projects over the reauthorization period. Of
this amount, $4.0 billion is proposed for the six projects FTA recommended for
multi-year grant agreements in the FY 2005 Annual New Starts Report. If these
6 projects are approved, only $2.4 billion would be left to fund the $17.2 billion
for the 32 projects remaining in the pipeline. Among these are some costly
projects, such as the Long Island Rail Road East Side Access, which has requested
$2.63 billion.

The New Starts evaluation process stands out among Federal transportation grant
programs as an example of a systematic approach to evaluating projects for
funding, and it is a much better process than existed in years past. Therefore, our
purpose today is to understand the limitations of the New Starts process so that it
can be further improved for decision-making, particularly as it relates to
consideration of highway congestion relief, the weight that should be assigned to
land use, and the quality of ridership forecasts.


1
  This number includes the six projects proposed for full funding grant agreements in the Fiscal Year 2005
  New Starts Annual Report.
2
  These projects represent a mix of light rail, heavy rail, commuter rail, and bus rapid transit.
We know that a central issue in FTA’s evaluation process has to do with project
justification and how it considers the full range of benefits, including congestion
relief on the highways. Based on our recently completed work, we have several
observations about FTA’s evaluation process, some of which raise policy issues—
such as FTA’s role in the alternatives analysis process; some of which relate to the
formulaic element—how projects are rated; and yet others relate to data—the
reliability of ridership projections. Specifically, we found that:

   • FTA provides guidance to local authorities to assist them in conducting the
     alternatives analysis, including consideration of highway congestion relief,
     environmental impacts, financial feasibility, and costs. However, local
     authorities exercise total discretion in deciding whether or not to use these
     measures, and the weights to assign to those that are used. FTA does not
     approve the selection of the locally preferred alternative.

   • Changes to the New Starts evaluation process since FY 1998 have
     expanded the scope of benefits considered to include transportation time
     savings. These benefits are important, but highway congestion benefits are
     largely missing. Projects that receive a “Low-medium” cost-effectiveness
     rating are proposed for funding based on high ratings for land use. If the
     goal is to give greater emphasis to the direct transportation benefits of the
     New Starts project, then the balance between these benefits and land use
     may need to be reconsidered.

   • Ridership is the single most critical element supporting project justification.
     Although FTA has improved its ability to identify problems with ridership
     forecasts, without more reliable and up-to-date ridership analysis, project
     justification will continue to be problematic.

   • Resolution of problems in estimating highway congestion relief will be
     difficult to achieve without a joint effort by the Federal Highway
     Administration (FHWA) and FTA to understand the extent to which transit
     provides highway congestion relief. This should be a critical Department
     initiative in support of the multimodal alternatives analysis decision and
     New Starts funding decisions.




                                         2
New Starts projects emerge from a regional, multimodal
transportation planning process.

In considering the limitations of FTA’s New Starts evaluation process, one must
first understand the project planning and development cycle and where FTA’s
oversight responsibilities fall within this cycle. As required by TEA-21, New
Starts projects must emerge from a regional, multimodal transportation planning
process. This step begins with systems planning to identify the transportation
needs of a region. Federal financial support for the initial planning process is
derived from various programs within FHWA and FTA. Once this planning has
been done, the next step is a phase called the alternatives analysis that evaluates
corridor-level options, such as rail lines and highway expansions. This stage
results in the selection of what is known as the locally preferred alternative—
which then becomes the New Starts project FTA evaluates for funding.

The project sponsor then submits to FTA a request for entry into preliminary
engineering—where FTA begins its evaluation of the project, and approves it for
entry into the New Starts funding pipeline. It is at this stage of the process that
local sponsors can receive New Starts funds. TEA-21 provides that no more than
8 percent of New Starts appropriations can be allocated for activities other than the
final design and construction of projects.

From preliminary engineering the project may proceed through final design, award
of a full funding agreement, and ultimately construction. At each of these stages,
FTA evaluates the projects for advancement into the next stage. Annual funding
recommendations are made for projects that are in final design or construction as
part of FTA’s annual budget submission. A recommendation for funding does not
guarantee that a full funding grant agreement will be executed. As required by
law, FTA cannot execute a full funding grant agreement until it has given
Congress 60 days to review the grant agreement and accompanying materials.
Figure 1 depicts how this process works.




                                         3
                                                                           Figure 1.
                                TEA-21 New Starts Planning and Project Development
                                                     Process

        Major Development
              Stage
                                                                              Systems Planning                       Systems Planning
         Local Decision Point
                                                                             Alternatives Analysis                  Alternatives Analysis
         FTA Decision Point


                                                                           Select Locally Preferred
                                                                                  Alternative



                                                                                 FTA Decision
                                                                                   On Entry
                                                                                    into PE



                                                                          Preliminary Engineering                      Preliminary
                                     Project Management Oversight




                                                                         Complete NEPA Process
                                                                        Refinement of Financial Plan                   Engineering
                                                                                 FTA Decision
                                                                                   On Entry
                                                                               into Final Design
                                                                                                                        Final Design
                                                                                    Final Design
                                                                       Commitment of Non-Federal Funding,
                                                                    Construction Plans, Right of Way Acquisition,           Full Funding
                                                                        Before-After Data Collection Plan,                Grant Agreement
                                                                              FTA Evaluation for FFGA,
                                                                                 Begin Negotiations




                                                                                  Construction                        Construction




FTA provides guidance to local authorities to assist them in
conducting the alternatives analysis, including consideration of
highway congestion relief, environmental impacts, financial
feasibility, and costs. However, local authorities exercise total
discretion in deciding whether or not to use these measures,
and the weights to assign to those that are used. FTA does not
approve the selection of the locally preferred alternative.

Transportation legislation has sought to balance the Federal interest in effective
oversight with state and local interest in tailoring decisions to local priorities. It
has also sought to promote multimodal system-wide decision-making, while
continuing separate modal funding streams. This has presented challenges to the
level of oversight and authority that the Department, as well as any one modal
administration, can exercise over the local decision process.

These challenges are especially apparent in the New Starts program. Because
local planners seek New Starts funding for projects selected out of the alternatives
analysis process, FTA relies on information developed during this process for

                                                                                    4
project ratings and advancement to preliminary engineering. As a result, FTA has
issued guidance specifying the information local authorities will need to develop
on the benefits, costs, and impacts of alternative strategies, leading to the adoption
of a locally preferred alternative.

In conducting this alternatives analysis, local planners are encouraged by FTA to
evaluate alternatives using measures that best meet local needs. At the option of
local planners, these measures can include:

   • Effectiveness – the extent to which alternatives solve the stated
     transportation problems in the corridor. This measure includes benefits to
     be derived from congestion relief.

   • Impacts – the extent to which the alternatives impact nearby natural
     resources and neighborhoods, air quality, the adjacent transportation
     network and facilities, land use, and the local economy.

   • Cost-effectiveness – the extent to which costs of the alternatives are in line
     with the benefits.

   • Financial feasibility – the extent that funds required to build and operate the
     alternatives are likely to be available.

   • Equity – the extent that costs and benefits of the alternatives are distributed
     fairly across different population groups in the community.

Under FTA’s current guidance, local authorities exercise total discretion in
deciding whether or not to use these measures and the weights to assign to those
that are used. For example, capacity constraints heavily influenced New York
City planners in their selection of the Second Avenue subway line. Planners found
that the volume of traffic and the space available on New York City streets
precluded the construction of a surface transit system or additional roads.
Consequently, planners chose to run a subway down the east side of Manhattan.
Other alternatives involved different alignments and bus/High Occupancy Vehicle
lanes. In another example, Phoenix planners had pollution to contend with. As a
result, planners chose a light rail system because Phoenix had been designated as a
non-attainment area for air pollution. Additionally, highway construction would
result in a greater volume of pollution generated from vehicle exhaust.

Once the locally preferred alternative is submitted to FTA for entry into
preliminary engineering, FTA assumes a more active role. At this stage, the
Transportation Equity Act of the Twenty First Century (TEA-21) requires FTA to
evaluate the results of the alternatives analysis, but it is not explicit on how FTA

                                          5
should accomplish the evaluation. FTA does not approve the selection of the
locally preferred alternative or evaluate whether other alternatives would have
generated greater benefits than the selected alternative. FTA’s review focuses on
determining whether the locally preferred alternative qualifies for entry into
preliminary engineering based on its financial and project justification ratings—
the two major components of FTA’s New Starts evaluation, which we will discuss
later.

Prior to the Intermodal Surface Transportation Efficiency Act (ISTEA), FTA
sought a larger role in the alternatives analysis process—one that would include
approval of the selection of the locally preferred alternative. In April 1989, FTA,
then the Urban Mass Transit Authority, issued a Notice of Proposed Rulemaking
seeking approval authority for the selection of the preferred alternative. This
approval was intended to control the number of projects entering the New Starts
pipeline and to ensure that information required for project evaluation be
developed consistent with the New Starts criteria. However, both the 1990 and
1991 Department of Transportation Appropriations Acts stipulated that none of the
funds appropriated in the acts could be used to implement or enforce the April
1989 Notice of Proposed Rulemaking. Subsequently, FTA withdrew its proposed
rule, focusing its efforts on providing technical guidance and evaluating projects
requesting entry into preliminary engineering.

Given the history of FTA’s involvement in the alternatives analysis process, if
there is an expectation that FTA’s role should be expanded, it is our opinion that it
will require explicit direction from Congress. In deciding an appropriate role for
FTA, the following factors need to be considered.

   • Once a project emerges as the locally preferred alternative, it is difficult to
     make material changes in course, such as selecting an entirely different
     mode, since expectations have been set, political support for the project has
     been established, and sometimes, even funding put in place.

   • Our work has also documented a clear need for more oversight of New
     Starts projects, but some consideration has to be given to FTA’s capability
     and resources to take on even more responsibility.




                                         6
Changes to the New Starts evaluation process since FY 1998
have expanded the scope of benefits considered to include
transportation time savings. These benefits are important, but
highway congestion benefits are largely missing. Projects that
receive a “Low-medium” cost-effectiveness rating are proposed
for funding based on high ratings for land use. If the goal is to
give greater emphasis to the direct transportation benefits of the
New Starts project, then the balance between these benefits and
land use may need to be reconsidered.

FTA evaluates proposed New Starts projects based on a set of financial and
project justification measures. Each of these measures are assigned ratings of
“High,” “Medium-high,” “Low-medium,” “Medium,” or “Low.” The individual
ratings are combined and included in the summary financial and project
justification ratings, based on weights assigned to each measure. Projects must
receive a rating of at least “Medium” for both the financial and project
justification summary ratings to be recommended for funding,

In evaluating the financial rating, FTA considers:

    • Non-Section 5309 Share—whether the sponsor has identified adequate
      local and other funding to meet its financial commitments.

    • Capital Finance Plan—whether the project’s financial plan is complete.
      This is where the reasonableness of project cost estimates and adequacy of
      financing for the project is evaluated.

    • Operating Finance Plan—whether the sponsor has the financial capacity to
      undertake the capital investment and to operate and maintain the system
      over a 20-year period.

Traditionally, our office and this subcommittee have examined the Capital
Finance Plan requirements for New Starts funding and whether project sponsors
meet these underlying financial requirements. For example, we have reviewed
the financing for Hudson-Bergen, Seattle Central Link, Tren Urbano Rail Transit,
Hiawatha Corridor Light Rail Transit, and the Los Angeles Metro Rail Red Line.
Because this is the first hearing on the project justification component of the New
Starts evaluation process, our comments today will focus on this complex area.

There are five criteria or measures under which project justification are evaluated.
They are:



                                         7
       • Cost-effectiveness—door-to-door travel time savings for all users of the
         proposed project (existing transit riders, new riders, and automobile
         drivers), such as reductions in walk times, wait times, and number of
         transfers. This includes a time savings factor to account for the congestion
         relief resulting from motorists switching to transit.

       • Land use—existing land usage, growth management, and transit supportive
         corridor policies; supportive zoning regulations; and implementation tools
         and performance of land use policies. This means that localities have plans
         in place that will facilitate future development in the corridor, such as
         building new or redeveloped commercial and residential areas.

       • Mobility improvements—travel time benefits per project passenger mile;
         number of low-income households served by the new proposed project and
         located within ½ mile of the stations; and employment near stations that are
         located within ½ mile of proposed transit stations.

       • Environmental benefits—changes in regional pollutant emissions, regional
         energy consumption in the forecast year, and Environmental Protection
         Agency air quality designations.

       • Operational efficiencies—operating cost per passenger mile in the forecast
         year.

All of these measures are explicitly identified in statute, with the exception of land
use.3 Although land use is not listed separately as a measure, there are repeated
references to it in the law. While FTA evaluates New Starts projects against all
five measures, it relies primarily on two of these measures—cost-effectiveness
and land use—in determining the project justification rating4. Each of these two
measures is assigned a weight of 50 percent. Figure 2 reflects the measures used
in FTA’s New Starts evaluation process.




3
    The land use measure was first used as a stand alone measure to evaluate projects for FY 1999.
4
    Mobility improvements are also considered when rounding is necessary to determine the rating.


                                                      8
                                                            Figure 2.

                                 The FTA New Starts Evaluation Measures



                                         Project Recommendation



                                                                           Project Justification
                     Financial Rating
                                                                                  Rating



           Non-Section      Capital      Operating       Mobility     Environmental   Operating          Cost         Land Use      Other
           5309 Share    Finance Plan   Finance Plan   Improvements     Benefits      Efficiencies   Effectiveness   (Weight 50%)
          (Weight 20%)   (Weight 50%)   (Weight 30%)                                                 (Weight 50%)




      Source: FTA


FTA has expanded the range of benefits considered for project
justification, but due to estimation difficulties, does not measure the
travel time savings to highway users stemming from highway
congestion relief.

Since FY 1998, FTA has made significant improvements in its evaluation of the
project justification by expanding the range of benefits considered. However, for
reasons that will be discussed later, projects with “Low-medium” cost-
effectiveness ratings get recommended for funding. But it is appropriate to first
review the changes FTA has introduced.

First, FTA made land use a separate measure to acknowledge policies that target
development around the New Starts project, which it believed can be an important
indicator of future project success. Such policies usually have an impact on urban
property values and growth in employment. This is considered a community or
economic development benefit that extends to the area-at-large and can be a
significant contributor to total tangible benefits. This, in turn, leads to higher
population and employment growth, thus promoting more ridership.




                                                                      9
Second, FTA replaced the old cost-effectiveness measure, which considered only
the number of new riders. The new one determines the cost per transportation
system user benefits and captures travel time savings for three categories of users:

   • existing transit riders,
   • new riders to the system, and
   • motorists whose travel time is reduced by other motorists switching to
     transit.

FTA’s old cost-effectiveness measure had two shortcomings. It recognized
benefits for only one user group—new transit riders—and it did not measure travel
time savings. The new measure captures door-to-door travel time savings, such as
reductions in walk times, wait times, ride times, the number of transfers for transit
users, and shorter drive times for motorists. The latter essentially serves as a
proxy for highway congestion relief. While the new benefits captured are good,
travel time savings from highway congestion relief is also important, but at present
these savings are not a measurable factor.

The change in the New Starts cost-effectiveness measure reflects projects that
serve the existing ridership base, rather than only ones that attract new riders. For
example, in the FY 2005 New Starts Annual report, only 9 of the 27 projects that
reported ridership expect 50 percent or more of their ridership to come from new
riders. An excellent example of this is the New York Second Avenue subway,
which is a new line proposed to relieve overcrowding conditions on the existing
Lexington Avenue line. The project expects to attract relatively few new riders,
about 2 percent of the total projected ridership.

FTA has not fully implemented the new cost-effectiveness measure as intended
because it has not been able to reliably estimate highway travel time savings from
the data provided by the local sponsors. The root of the problem is in forecasting
highway speeds. Until an acceptable forecasting methodology is developed, FTA
has deferred inclusion of highway travel time savings in the calculation of
transportation user benefits. FTA is considering plans to spend $1.2 million to
conduct research on the estimation of highway travel benefits.

The omission of highway travel time savings in the measurement of transportation
user benefits has two important impacts. First, the benefits from proposed projects
that convey significant travel time savings for motorists are not recognized in the
selection process. Second, to account for this omission, FTA has adjusted the
cost-effectiveness thresholds upward. This has the effect of giving all projects the
same credit for highway travel time savings, whether they deserve it or not. For
example, we are concerned that FTA is rating projects that would have received a
“Low” as a “Low-medium.” It is our opinion that this may not comport to reality.

                                         10
In the FY 2005 New Starts Annual Report, eight projects are affected by this
adjustment.

The importance of forecasting highways speeds for travel time savings has
implications well beyond the evaluation of New Starts projects. For example, it is
critical to conducting multimodal studies that would benefit the alternatives
analysis and in determining the environmental impacts for all transportation
projects. Therefore, it seems to us that the Department would be well served if
FHWA and FTA together could develop the solution. Congress may want to
consider the milestones that should be set for the Department in reaching a
solution.

FTA’s rating process allows some projects with “Low-medium” cost-
effectiveness ratings to receive acceptable project justification
ratings.

Even if highway travel time savings could be reliably estimated, there is still
another issue—it is possible for projects with “Low-medium” cost-effectiveness
ratings to get recommended for funding.5 This occurs when “High” ratings for
land use offset “Low-medium” ratings for cost-effectiveness through the
averaging of scores, resulting in an overall rating of “Medium.” These “Medium”
ratings combined with “Medium” or higher ratings for financial commitment leads
to an overall “recommended” rating.

For example, six projects with cost-effectiveness ratings of “Low-medium” were
either proposed for funding or pending a grant agreement in Fiscal Year 2005. In
addition, two projects in preliminary engineering received “Low” cost-
effectiveness ratings, yet a “Medium” rating for project justification. The table
below summarizes how project ratings were derived for cost-effectiveness and
how overall project justification ratings for the FY 2005 budget proposal were
achieved. The shaded rows identify the projects proposed for funding with “Low-
medium” ratings for cost-effectiveness.




5
    Not all projects recommended for funding receive full funding grant agreements.


                                                     11
                                        Table
                         Summary of FY 2005 New Starts Ratings
                                                                                  Project Justification
                                     Overall Project     Financial
 2005 New Starts Projects
                                        Rating            Rating        Overall           Cost            Land
                                                                        Rating        Effectiveness        Use
 Pending FFGA
 Los Angeles, CA1, Metro Gold
 Line                                 Recommended        Medium         Medium         Low-Med.       Med.-High
 Projects in Final Design
 Charlotte, NC1, South Corridor
 LRT2                                 Recommended       Med.-High       Medium         Low-Med.       Med.-High
 Cleveland, OH1, Euclid Corridor      Recommended       Med.-High       Medium         Low-Med.       Med.-High
 New York, NY1, LIRR E.S.2
 Access                               Recommended        Medium        Med.-High        Medium          High
 Phoenix, AZ1, Central LRT2           Recommended       Med.-High       Medium         Low-Med.        Medium
 Pittsburgh, PA1, North Shore LRT2    Recommended        Medium         Medium         Low-Med.       Med.-High
 Raleigh-Durham, NC1, RRS2            Recommended        Medium         Medium         Low-Med.        Medium

 Preliminary Engineering
 Columbus, OH1, North LRT2            Recommended        Medium         Medium          Medium            Medium
 Dallas, TX1, NW/SE2 Light Rail       Recommended        Medium         Medium         Low-Med.           Medium
                                          Not
 Fort Collins, CO1, Mason             Recommended       Low-Med.       Med.-High       Med.-High      Med.-High
 Hartford, CT1, Busway                Recommended        Medium         Medium          Medium         Medium
 Las Vegas, NV1, Resort Corridor      Recommended        Medium        Med.-High       Med.-High       Medium
                                          Not
  Los Angeles, CA1, Mid-City LRT2     Recommended         Low-Med.       Med.-High      Med.-High     Med.-High
  New Orleans, LA1, Desire                Not
  Streetcar                           Recommended          Medium        Low-Med.          Low            Medium
  New York, NY1, 2nd Ave. Subway      Recommended          Medium        Med.-High      Low-Med.           High
  Orange County, CA1, LRT2            Recommended        Med.-High        Medium         Medium           Medium
  Salt Lake City, UT1, Commuter
  Rail                                 Recommended         Medium         Medium        Low-Med.          Medium
                  1
  San Diego, CA , Mid-Coast            Recommended         Medium         Medium        Med.-High         Medium
  San Francisco, CA1, Central
  Subway                               Recommended         Medium         Medium           Low          High
  Washington County, OR1, Rail         Recommended       Med.-High        Medium           Low        Med.-High
Source: FTA, FY 2005 New Starts Annual Report
1
  CA=California, NC=North Carolina, OH=Ohio, NY=New York, AZ=Arizona, PA=Pennsylvania,
TX=Texas, CO=Colorado, CT=Connecticut, NV=Nevada, LA=Louisiana, UT=Utah, OR=Oregon.
2
  E.S. – East Side; NW/SE – Northwest/Southeast; LIRR – Long Island Rail Road; LRT – Light Rail
Transit; RRS – Regional Rail System.

There will always be some balancing involved in arriving at decisions on projects
to fund. The balancing issue refers to weighing the direct transportation benefits
as measured by cost-effectiveness with the indirect economic development
benefits measured by land use. First, and foremost, New Starts are transportation
projects designed to promote mobility improvements, operational efficiencies,


                                                12
cost-effectiveness, and environmental benefits. These represent the direct benefits
from the transportation project. However, the prominence of land use in the
“equation” can heavily influence a shift in focus, emphasizing the indirect
benefits, even when the rating for cost-effectiveness is not high. If the goal is to
give greater emphasis to the direct transportation benefits of the New Starts
project, then the balance between these benefits and land use may need to be
reconsidered.

Ridership is the single most critical element supporting project
justification. Although FTA has improved its ability to identify
problems with ridership forecasts, without more reliable and up-
to-date ridership analysis project justification will continue to be
problematic.

In addition to our concerns about the lack of data on highway travel time savings,
there have been notable problems with locally developed ridership forecasts over
the years. Ridership is a critical element in determining all project-related
benefits, driving mobility improvements, congestion relief, environmental cost
savings and economic development. These benefits will fall short if ridership
estimates are not materially attained. Thus, reliable ridership estimates are
paramount to achieving the intended improvements—namely, the identification of
projects with the greatest tangible benefits.

According to FTA, the accuracy of local forecasting models has been limited.
This has presented problems for FTA in evaluating the user benefits of proposed
projects, and even preventing FTA from rating some projects. For example, in the
2005 New Starts Annual Report, eight New Starts projects did not get rated for
cost-effectiveness because projected ridership levels were determined by FTA to
be questionable.

To better understand how well project sponsors predict ridership, we reviewed a
study6 conducted by FTA in 2003, which looked at the performance of 19 transit
systems that began operations between 1990 and 2000. We looked at the ridership
forecasts for five of these systems that have been in revenue service for at least 4
years, to determine how well they performed against their predictions. The FTA
report compared the forecasts made by project sponsors for 2005 with actual
ridership in 2002 or 2001—the latest available data—to see how close they were
coming to meeting their targets.

We found that these projects fell materially short of delivering promised ridership.
The ridership levels actually achieved ranged from 33 percent on the Houston
6
    “Analysis of Predicted and Actual Impacts of New Starts Projects, Part 1: Project Inventory,” FTA, 2003.


                                                      13
Southwest Transit Way (Busway) to 89 percent on the Portland Westside-
Hillsboro light rail system. For three of the five projects, ridership projections
were never updated to reflect significant changes in project scope, service levels,
and/or delays in full system implementation since the alternative analysis was
conducted. For the Portland project, which revised its ridership forecast to reflect
project changes during the planning phases, the accuracy of forecasted ridership
increased significantly. Some of the ridership forecasting problems are also due to
the accuracy of local forecasting models. While this is a very small sample, it
helps illustrate some of the problems that occur in ridership forecasting.

FTA has taken an important step in dealing with this problem in using the new
Summit software7 to help identify problems with ridership forecasts. While we
recognize that there is always uncertainty in forecasting ridership, the bigger
challenge is to ensure that as projects progress through planning and development
phases, forecasts reflect changes in scope and service levels, and any other factors
that materially impact ridership.

Mr. Chairman, this concludes my prepared statement. 8 We would be pleased to
answer any questions you or other members of the Subcommittee may have.




7
    The Summit software is a reporting and analysis tool that computes user benefits from locally-developed forecasts, as
    well as analytical summaries of both the forecast and user benefits.
8
    This testimony was conducted in accordance with Government Auditing Standards prescribed by the Comptroller
    General of the United States. The work supporting this testimony was based on prior and ongoing audits conducted
    by the Office of Inspector General. We updated material to reflect current conditions or to reflect FY 2005 budget
    requests as necessary.




                                                           14
